<html>
<title> - IMPLEMENTATION OF NATIONAL SUPPLY REDUCTION STRATEGY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





          IMPLEMENTATION OF NATIONAL SUPPLY REDUCTION STRATEGY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2003

                               __________

                           Serial No. 108-115

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-407              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
               John R. Stanton, Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 17, 2003...............................     1
Statement of:
    Crane, Dr. Barry, Deputy Director for Supply Reduction, 
      Office of National Drug Control Policy.....................    10
Letters, statements, etc., submitted for the record by:
    Crane, Dr. Barry, Deputy Director for Supply Reduction, 
      Office of National Drug Control Policy:
        Information concerning drug use..........................    29
        Information concerning U.S.-Dutch Bilateral Law 
          Enforcement Meeting....................................    41
        Prepared statement of....................................    13
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

 
          IMPLEMENTATION OF NATIONAL SUPPLY REDUCTION STRATEGY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Carter, Cummings, 
Ruppersberger, and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; John Stanton, congressional fellow; Nicole Garrett, 
clerk; and Tony Haywood, minority counsel.
    Mr. Souder. The subcommittee will come to order.
    Good morning. Because of our focus in the subcommittee this 
year on the reauthorization of the Office of National Drug 
Control Policy and the President's treatment initiative, this 
is a continuation of hearings in the 108th Congress on drug 
supply and interdiction matters. The abuse of illegal narcotics 
and its silent everyday impact on health, safety, families, and 
stability in every community across the country continues to be 
one of the most pressing issues facing the United States.
    Tom Davis, the distinguished chairman of the full 
committee, and I, with the full support of the subcommittee 
ranking member, Mr. Cummings, have introduced legislation 
reauthorizing ONDCP and its programs for 5 years. The bill 
makes some significant revisions to current law that will 
enhance the effectiveness and accountability of the National 
Drug Control Strategy and its programs, streamline and simplify 
the process for its development, and provide increased 
flexibility to the ONDCP Director to respond to changing 
circumstances. The bill is a forceful and bipartisan 
recommitment to our diverse national efforts to control drug 
abuse and to renew our support for a strong ONDCP to plan and 
coordinate the President's strategy to measurably reduce drug 
use by American youth and to control drug abuse and its 
consequences. The bill is a true bipartisan effort and 
represents the outcome of ongoing consultation and discussions 
with the minority.
    The bill contains the complete text of the Dawson Family 
Community Protection Act that was introduced by the ranking 
member of this subcommittee, Mr. Cummings, to address witness 
and community protection initiatives in the wake of the tragic 
death of the Dawson family in Baltimore at the hands of violent 
drug dealers. The bill reported from committee also contains a 
number of items requested by Mr. Waxman, the distinguished 
ranking member of the full committee, many of which reflect a 
clear bipartisan agreement that the medical campaign should not 
be used for political purposes.
    As I often point out, around 20,000 Americans die each year 
of drug-related causes, more than any single terrorist act to 
date. It is vitally important that we maintain vigorous efforts 
to control the sources of supply of narcotics and to interdict 
them prior to entering the United States. While we have 
recently begun to see the real and tangible successes in some 
of our source country programs, most notably Plan Colombia, the 
Federal Government continues to face significant challenges on 
two fronts: supply reduction strategies and programs, and, 
second, the interdiction strategies and programs. The 
challenges are both caused by policy and political issues and 
by resource constraints. Our witness today has some of the most 
significant responsibilities for strategic matters relating to 
narcotics supply reduction and interdiction, and I appreciate 
the opportunity to have Dr. Crane enlighten us on the status of 
these critical programs.
    First, I would like to review the strategies used in Plan 
Colombia. Chairman Tom Davis of the full committee and I 
returned from a visit to Colombia just after this Nation's 
birthday this summer, which was the third committee delegation 
this year. We are beginning to see real and tangible successes, 
and the Speaker of the House and both of us very much 
appreciate the continued support of President Uribe and Vice 
President Santos, with whom we have had the opportunity to 
spend a significant amount of time. We also obtained a renewed 
sense of the many steep challenges Colombia and our source 
country programs continue to have. We met with soldiers who had 
lost limbs and eyes to the increasing terrorist attacks of the 
FARC. We met with widows who were grateful for the opportunity 
to learn skills toward earning a modest living by baking or 
sewing, supported by the Agency for International Development. 
I would like Dr. Crane to address what else we should be doing 
from a policy or strategic perspective to capitalize on the 
momentum in Colombia.
    Other serious issues must be considered relating to Plan 
Colombia. We Americans continue to be held hostage by the FARC. 
The Attorney General of the United States has indicted members 
of both the FARC and the AUC for using drug proceeds to support 
their terrorist acts. Colombian heroin is being increasingly 
prevalent on the East Coast of the United States. As our 
programs succeed in Colombia, we now face increased attacks on 
spray planes and the spillover of the drug traffic, violence, 
and terrorism to other nations of the Andean region. We must 
also continue to consider the failure of European nations to 
step up and provide sorely needed assistance to build 
communities and institutions at this crucial time. These 
countries pledged to provide assistance at the very beginning 
and have yet to contribute, or have only contributed very minor 
amounts.
    The second significant issue is the question of allocation 
of national resources to drug interdiction missions. Many of 
our most significant interdiction assets used in this 
hemisphere were moved into the new Department of Homeland 
Security in March, namely, the U.S. Coast Guard cutters and 
aircraft, and the Immigration and Customs Enforcement aircraft 
and go-fast boats. The subcommittee staff received briefings 
this summer at the Joint Interagency Task Force South in Key 
West and the U.S. Southern Command that suggest that the 
redirection of national resources from drug control missions to 
homeland security and combat missions have had a dire negative 
impact on drug interdiction. I also understand the Department 
of Defense wants to realign its Joint Interagency Task Forces 
with a closure and relocation of JIATF-West and the creation of 
a JIATF-North. I am very curious how the Office of National 
Drug Control Policy advocates and solicits cooperation from the 
contributing departments in meeting the national strategy.
    Finally, I would like to hear about the strategic and 
policy responses to rapidly emerging new threats such as the 
flood of Ecstasy into the United States and the resumption of 
large-scale heroin production in Afghanistan. A member of my 
staff has just returned from Turkey and Uzbekistan, where he 
gathered information about production trends, transshipment 
routes, and precursor chemicals. The Drug Enforcement 
Administration has a limited number of personnel in the region, 
working closely with Department of State personnel and host 
nation personnel. Their efforts are noteworthy but minuscule in 
comparison to the size of the problem. I look forward to your 
testimony on this particularly dire narcotics supply issue.
    Clearly, our plate this morning is very full, so I welcome 
our witness, Dr. Barry Crane, Deputy Director of the Office of 
National Drug Control Policy. But first I would yield to Mr. 
Cummings for any opening statement he may have.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T2407.001
    
    [GRAPHIC] [TIFF OMITTED] T2407.002
    
    [GRAPHIC] [TIFF OMITTED] T2407.003
    
    [GRAPHIC] [TIFF OMITTED] T2407.004
    
    [GRAPHIC] [TIFF OMITTED] T2407.005
    
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Illegal drugs contribute to an estimated 50,000 deaths in 
the United States each year. Nineteen thousand of those deaths 
are a direct result of illegal drug use. According to the 2001 
National Household Survey on Drug Abuse, 16 million Americans 
use an illegal drug on at least a monthly basis, including 6.1 
million who needed treatment. Only 17 percent of those needing 
treatment received it. In Baltimore City alone there are some 
50,000 plus people addicted to drugs. Nationwide, it is 
estimated that each year 110,000 individuals who seek treatment 
are unable to obtain it. A high percentage of all crime in the 
United States is drug related, and most of the prisoners 
sitting in U.S. prisons, jails, and detention facilities are 
there because of illegal drug activity.
    These facts paint an ugly picture of the impact of drugs on 
the American society, but they do not begin to describe the 
tragic harm done to individuals, families, and communities by 
drugs. Reducing the supply of illegal drugs available to the 
U.S. market is one of the three basic priorities that underpin 
the President's strategy for reducing the impact of drugs on 
America. The other two components are prevention and treatment. 
Today we will hear from Deputy Director for Demand Reduction in 
the White House, Office of National Drug Control Policy 
concerning the progress of the United States with regard to 
supply reduction efforts today.
    Nearly all of the cocaine consumed in the United States 
originates in the Andean region nations of South America, with 
an estimated 90 percent originating in or passing through 
Colombia. Colombia is now also the most significant source 
country for heroin consumed in the United States. Since 2000, 
when we launched Plan Colombia with $1.3 billion, well over $2 
billion has been invested in supply reduction efforts in 
Bolivia, Brazil, Colombia, Ecuador, Peru, and Venezuela.
    Today's hearing provides an opportunity to discuss some 
very important issues concerning the direction, the 
implementation, and the impact of our drug supply reduction 
strategy, and the extent to which our international investment 
has produced meaningful domestic returns. As much as anyone 
else, I want to see our international efforts succeed. The 
success must be measured in terms of domestic impact, on the 
price and the availability of drugs on the U.S. streets, and I 
have yet to see that impact. What I do continue to see is the 
devastating impact of addiction, and the question remains: What 
is the best way to attack this problem?
    I am mindful of the well publicized Rand Corp. study that 
found that treatment is seven times more cost-effective than 
domestic drug enforcement in reducing cocaine use and 15 times 
more cost-effective in reducing the social costs of crime and 
lost productivity. Although the Rand study is not without its 
detractors, I am also mind of the Baltimore Drug and Alcohol 
Treatment Outcome Study, which found a direct correlation 
between increased exposure to treatment and significant 
reductions in criminal and other unhealthy and antisocial 
behaviors and outcomes. In Baltimore we have seen immediate 
positive returns on our investment and treatment. We are still 
waiting for Plan Colombia to deliver results at home.
    Determining how best to allocate limited drug control 
resources is an enormous challenge that we have to confront. 
For that I thank you, Dr. Crane, for your appearance here 
today, and I look forward to hearing your testimony.
    And with that, Mr. Chairman, I yield back.
    Mr. Souder. I thank you. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and any answers to 
written questions provided by the witnesses also be included in 
the record.
    Without objection, so ordered.
    I ask unanimous consent that all exhibits, documents, and 
other materials referred to by Members and the witness may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks.
    Without objection, so ordered.
    Dr. Crane, would you please stand so I can administer the 
oath? As you know, it is our standard practice in this 
committee to do that.
    [Witness sworn.]
    Mr. Souder. Thank you.
    Let the record show that the witness clearly answered in 
the affirmative.
    Now welcome to our committee the Office of National Drug 
Control Policy witness, Dr. Barry Crane, Deputy Directory for 
Supply Reduction. And you are recognized. We will give you more 
than 5 minutes. We will put your whole statement in the record, 
so you can do some summary, because I think it will go even 
more than probably even 10. But if you can give us an overview, 
as I know you have presented to us in the written, and then we 
will ask some questions and details.

   STATEMENT OF DR. BARRY CRANE, DEPUTY DIRECTOR FOR SUPPLY 
       REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Crane. Thank you Chairman Souder and Ranking Member 
Cummings. There are other distinguished Members I know that 
will expect questions for the record.
    It is really a pleasure to appear before you to discuss the 
implementation of the international supply reduction elements 
of our National Drug Control Strategy. On behalf of Director 
Walters of the Office of National Drug Control Policy, and all 
of the members of ONDCP, I would like to thank both of you for 
your continuing support for our national struggle against 
illegal drugs. We are particularly thankful for your active 
support of the international supply reduction efforts in 
Colombia, including visits by many committee members.
    I am pleased to report that significant progress has been 
made in these efforts and in our implementation of disrupting 
the market priority of the national drug control strategy. A 
more important development is that eradication in Colombia now 
substantially exceeds coca replanting efforts, thanks to 
President Uribe's aggressive aerial spraying campaign. In the 
western hemisphere we are trying to eradicate everything we can 
find. As a result, coca cultivation has decreased by 75 percent 
between September 2002 and early 2003, particularly in the 
Putumayo region, which was once the epicenter of coca 
cultivation, and overall coca cultivation of production in 
Colombia dropped 15 percent in 2002. Brave Colombian officials 
are also aggressively, with U.S. support, weakening criminal 
and terrorist organizations throughout. We have an 
organizational attack that broke down the Valencia Trujillo 
organization earlier this year. We are beginning financial 
attack operations aimed at the money laundering systems 
involving the black market peso exchange, and with President 
Uribe's help extradited many members, including a member of the 
FARC, who was drug trafficking.
    In addition, opium poppy cultivation fell by 25 percent in 
Colombia between 2001 and 2002, and Colombia and the United 
States are targeting the remaining heroin production by 
spraying all the opium we can find. We are using a new system 
to try to use informants to find it for reconaissance flights. 
We have fortified the interdiction of the heroin by employing 
airport x-ray machines, and we are in the process of rapidly 
expanding DEA's heroin task force members inside of Colombia.
    Substantial progress is also being made in Mexico, the 
second really important country. Since President Fox assumed 
office in December 2000, much of the Federal policy and 
judiciary has been reformed, and over 6,000 drug traffickers 
have been arrested, including the head of the famous Arellano 
Felix Organization, and many other large leaders of the major 
drug trafficking organizations. Mexico's eradication programs 
against marijuana and opium poppy have been effective as well, 
and we are ahead of schedule this year, compared to last year.
    The Fox administration has also been unafraid to go after 
corrupt officials in the government and military, as evidenced 
by sentencing general officers for aiding the drug trade in 
2002, and in October 2002 arresting 24 individuals charged with 
leaking information on drug control activities of the Army, 
Federal police, and attorney general. Major challenges remain 
with the extradition of major traffickers to the United States 
from Mexico.
    In Canada we are concerned with the following. It is a 
primary source of the precursor chemicals for methamphetamine, 
pseudoephedrine and ephedrine, and its production of marijuana, 
especially the high potency type along the northern border. The 
United States will continue to work aggressively with Canadian 
law enforcement agencies on organizational attack and border 
interdiction to disrupt both marijuana and methamphetamine 
markets.
    In Afghanistan, the opium and heroin trade threatened U.S. 
interests by undermining the Afghan Transitional Authority 
headed by President Karzi, thwarting development of illicit 
economies, and providing financial support to terrorist 
organizations. The United States has been strongly supporting 
multi-level efforts led by the United Kingdom to disrupt these 
illegal drug markets in Afghanistan, and the President's 
acceleration initiative will include substantial new resources 
to do that.
    In Europe we are concerned with the Netherlands status as 
the primary source of MDMA, or Ecstasy, consumed in the United 
States. The Dutch Government must increase its efforts to 
curtail MDMA trafficking. We are also working on bilateral 
initiatives to support this goal.
    In conclusion, it is notable that progress has been made to 
this point for disrupting the market, and efforts have been 
largely achieved concurrently and synergistically with the 
Nation's war on terrorism. There have been significant 
realignment of agencies, resources, and personnel over the last 
2 years. For example, interdiction operators continue removing 
large amounts of cocaine and heroin despite asset limitations, 
and this is due primarily to much improved intelligence. Our 
efforts in Colombia are achieving success due to the bravery of 
President Uribe and his administration. They are committing an 
unprecedented amount of resources to the counter-drug trade and 
are following through with unprecedented actions to find and 
eradicate all of the coca and opium poppy we can find in 
Colombia. In Mexico, the courage and commitment of President 
Fox and his administration are producing reformed counter-drug 
institutions and reinvigorated organizational attack 
initiatives, and renewed resistance against the drug trades 
throughout Mexico.
    Success in these areas will make a real difference in the 
availability of drugs in the United States. We will continue to 
fund these strategies that are working to keep the pressure up 
on our front, and we look forward to Congress' continued 
cooperation and steadfast support.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Crane follows:]

    [GRAPHIC] [TIFF OMITTED] T2407.006
    
    [GRAPHIC] [TIFF OMITTED] T2407.007
    
    [GRAPHIC] [TIFF OMITTED] T2407.008
    
    [GRAPHIC] [TIFF OMITTED] T2407.009
    
    [GRAPHIC] [TIFF OMITTED] T2407.010
    
    [GRAPHIC] [TIFF OMITTED] T2407.011
    
    [GRAPHIC] [TIFF OMITTED] T2407.012
    
    [GRAPHIC] [TIFF OMITTED] T2407.013
    
    [GRAPHIC] [TIFF OMITTED] T2407.014
    
    [GRAPHIC] [TIFF OMITTED] T2407.015
    
    [GRAPHIC] [TIFF OMITTED] T2407.016
    
    Mr. Souder. Thank you for your testimony. And the first 
round of questioning here, what I want to focus on a little 
bit, and first let me say one of the important things that we 
need to do in this committee on the floor is show that when 
there are successes, that we talk about those successes, 
because those who would end our anti-narcotics policies, or 
greatly reduce them, love to talk about the failures. In 
Colombia we have actually made some progress, and it is 
important that we talk about that progress; and in Mexico, 
compared to when I first came into office in 1995, where we 
were not getting much cooperation, we are at least getting more 
cooperation from Mexico.
    That said, we are kind of disappointed with how much 
reduction we have had in the United States, and in continuing 
to try to figure out what we need to do, we have a series of 
questions related to that. Let me first start with some 
questions, because while we have broad oversight authority, our 
direct responsibility is with ONDCP. And in choosing to focus 
on this agency and have an agency that was, in particular, 
trying to coordinate what was a highly scattered anti-narcotics 
policy, the thought was that while you might not have line 
authority over other agencies, you could have an impact on 
that. So while it is helpful to know progress that we have and 
get status reports as we get from the different agencies, I 
have some very particular questions for you in your role in 
counter-narcotics efforts, and that is could you give a little 
bit some direct examples, not just in general, but some direct 
examples of how your role works with the State Department, the 
Department of Defense, and other agencies in trying to steer 
them in the counter-narcotics interdiction efforts? In other 
words, not just talking to us or the media, but what do you do 
in your job to foster coordination between the agencies and to 
say, look, Department of Defense, which is one of the examples 
right now, you are backing off of some of your narcotics 
efforts; you need to step that up.
    Mr. Crane. Thank you for that question. Essentially my job 
is to do the policy, but let me describe just in brief how that 
works. The President has pretty well lined out exactly what he 
wants done, and we have decision directives to do that. We have 
implementation guidelines and we run routine meetings to 
resolve these issues. To date there have been many issues that 
we have resolved. When we can't resolve them, we basically 
escalate them up the policy chain for decisions at a higher 
level. To date we have gone through almost all of the 
President's decision criteria that he wanted on the thing. We 
have reasonably good cooperation from the different agencies. 
In fact, we have gotten good cooperation and we have been able 
to solve many of the problems, like command and control, and 
get that settled. We are now pretty much in a final phase of 
wrapping that up in the next few months and giving a report 
back to the President of how well we have executed these 
directives. So that is basically, with respect to how we 
organize the U.S. Government.
    You also realize that I have a secondary role, an important 
role, which is to take that message to important allies and put 
a lot of pressure on them to work better with us. We have 
gotten the Air Bridges restarted in Colombia, we have the 
counter-narcotics CD brigade engaged in combat a lot more 
effectively, we have gotten more efficient operations against 
the fishing trawler East Pack. Many examples I think have been 
successful.
    Mr. Souder. Have you expressed concerns to the Department 
of Defense about JIATF and how they are going to coordinate 
that, and their public statements that they are going to 
downgrade some of their narcotics efforts?
    Mr. Crane. What we have done is solved that problem, as far 
as I can tell. We are going to realign it much more efficiently 
in the command and control, and I think that is done. I am not 
sure it has been officially announced, but that has been 
completed. We have agreement among all the combatant commanders 
and so on how to do this, so as that comes out we will 
certainly inform the committee. But that is, as far as I can 
see, well under control, and we will report back to the 
President we have gotten that done.
    Mr. Souder. And in the Department of Homeland Security, one 
of our concerns is reorganization of the border, because many 
of these narcotics agencies are organizations that dealt with 
immigration and narcotics, so all of a sudden, under Homeland 
Security, have a slightly different mission. And the question 
is, for example, my understanding in the Coast Guard is that 
any time there is an orange alert, they are pulled back into 
port and they are no longer there for interdiction efforts. Are 
you involved in those kind of questions, and have you expressed 
concerns to the Department of Homeland Security about their 
reduction in their narcotics mission?
    Mr. Crane. Absolutely, sir. We have been able to work 
closely with them. As far as I can tell, and I looked at this 
over a 10-year period, even though we account for these, 
performance has actually gotten better over this time; the 
seizures have gone up. If you go back to 1993, we have about 
maybe a third of the hardware, but much more efficiently used. 
So I think the taxpayer is getting a lot better use for the 
dollar. The primary reason for this is a lot better coordinated 
intelligence among the agencies.
    But the second thing we recognized, some of the threats, 
for example, the go-fast boats were particularly difficult. 
What has been deployed is specialized apprehension units with 
the new MA-68 helicopters. Those are designed specifically to 
go after that. So as far as I can see, the interdiction effort 
has proceeded pretty well, even in spite of the orange alerts, 
and the Government has done a good job, we have an executive 
branch causing substantial damage.
    The most notable success I think last year was we 
interdicted sufficient number of the large fishing trawlers in 
the Eastern Pacific, so that is pretty well diminished as a 
threat. We are still, of course, facing the go-fast threat, and 
we are still working on that.
    Mr. Souder. So in a direct answer to the question, you have 
expressed concerns to Department of Homeland Security about 
that, or you are satisfied with what they are doing and you let 
them do their own thing on that?
    Mr. Crane. Well, both. What we try to do is organize it so 
that we don't have such a big impact. In the first orange 
alert, of course, more was impacted, but now a lot of the deep 
water cutters don't necessarily go back to port. But the 
important thing is that this is taken into account every time, 
to balance that in a proper way. So while there is a concern, I 
haven't noticed a difference in performance. And the way I look 
at it as a policy grower, I don't want to get into every little 
detail of each department, but what I do want to do is hold 
them accountable for doing the best they can.
    Mr. Souder. Do you think part of your role is to say, for 
example, we are catching on a small percentage of go-fast 
boats. I think the specific what we learned, our staff, in the 
direct briefing is that out of 396 cocaine-laden go-fast 
shipments estimated by our Government, we caught 59; they 
average 1,500 kilos of cocaine. That means while we seize 88.5, 
594 made it through. So do you then go to these agencies and 
say, look, this is unacceptable, we are supposed to be reducing 
this. What can we do? You need these kind of things; we need to 
make budget requests for these kind of things. Not all this has 
to be, I understand, in the same administration, this is an 
awkward question, but what we need to know out of ONDCP, 
because you are the primary anti-narcotics advocates, are you 
going to these agencies and pushing to say, look, part of your 
job is to say, look, this is the area that I am supposed to be 
watching; we are not improving our efforts fast enough here.
    Mr. Crane. Well, let me discuss that a little bit. I knew 
there was a great concern about that, and the best I could 
discover is our performance against these targets and the ones 
that we don't necessarily get each year, I can't find a 
substantial difference looking at this. Now, I realize these 
are ones that were actionable that you could actually get. It 
is my understanding, when I went back and looked at it, there 
are always hand-offs and there are always some missed, and when 
I went back over time, we are actually doing, percentage-wise, 
of the ones we actually get the intelligence on and get, better 
than we did, say, 10 years ago, and that has been steadily 
improving.
    In 2000, when we looked at this question, we recognized 
that they are quite difficult to detect, so we went to this 
disrupt the market strategy and primarily emphasized arresting 
them. So what we recognized was probably not possible or 
difficult to capture or seize enough of the go-fast, but what 
we do is we went to these specialized apprehension resources, 
where we could arrest all the crews, and the objective was to 
deter their operation, actually make them quit. We have had 
some successes in some theaters of those operations, example, 
the fishing vessel. The go-fast threat in the Western Caribbean 
in 1999, for example, we were able to mount enough resources 
and intelligence so they diverted that operation. So as far as 
I could tell, and I went back and looked at this pretty 
careful, and talked to Admiral Sirois specifically about this, 
that our performance is still about that level.
    Now, a lot of this my guess is we couldn't get many of 
these, we weren't able to execute against them, so we have to 
have ability to attack, but what we did was to overcome our 
deficiency in how hard these are to detect and changed our 
strategy, which is basically try to arrest all these people so 
that the ones we would get would make them quit. So this is the 
current strategy we adopted in 2000. So this is the best, as I 
recall, and that is the one we are trying to go. We would like 
to have them quit their operation, or substantially diminish 
that. So seizures aren't the total answer here; we also look at 
arrests and how many of that we get. So as far as I can tell, 
sir, they have been doing very well on this.
    Now, the go-fast are our remaining problem, we have not 
been able to get enough of them to stop that threat everywhere, 
and that is what we are focusing on right now with these 
specialized assets.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Dr. Crane, I think it is a reasonable 
conclusion that your efforts, or at least two goals of all of 
these efforts that you talk about with regard to supply 
reduction is to reduce the cost of drugs on the streets in the 
United States and to reduce the supply. Is that accurate?
    Mr. Crane. Yes, sir, those are my responsibilities.
    Mr. Cummings. OK.
    Mr. Crane. The supply and keep it from the street, yes, 
sir.
    Mr. Souder. I think you meant to say raise the price on the 
street.
    Mr. Cummings. Yes, that is what I meant. Thank you.
    Now, are we doing that? Are we having that effect?
    Mr. Crane. If you look at over the last 5 years, and if you 
look at, for example, cocaine, in the last 5 years, if you look 
at the price per pure gram of cocaine from DEA data, yes, we 
did raise the price somewhat. Now, one of the unusual things 
about the drug market is the way the drug traffickers adapt to 
interdiction or supply reduction is they lower the purity of 
the drug. So when they do that we get a benefit, because we get 
less people dying from overdoses. But the other thing is the 
way they adapt is they lower the purity of the drug, so what 
tends to happen is if you don't adjust for this purity, you get 
sort of a constant price, and the way that I believe that 
supply reduction will ruin the drug business is it will ruin 
the quality of the drug to the point where people won't buy it. 
It will not raise it to the price, for example, it was in 1980 
because there many of the components of the price came from 
extremely high prices in Colombia and Peru in those days, and 
we won't see that again. So what we have seen is a decline in 
the quality of the drug, for example, cocaine.
    Mr. Cummings. Now, you just said something that I found 
very interesting. You said that one of your hopes would be that 
at some point the purity would be so reduced that people would 
stop buying it. Is that what you just said? Because we are 
talking about addicts.
    Mr. Crane. There are two kinds of users, the non-addicted 
user and the user. So in the addicts, yes, it would reduce the 
quality of the drug. That is one of the things we have 
observed, especially since 1995.
    Mr. Cummings. But what I am saying to you is if you have an 
addict who needs these drugs and would kill their mother to get 
the drugs, just because the purity is reduced, and I may be 
wrong about this, it doesn't seem like it would necessarily 
cause them to stop purchasing the drug. They would either try 
to find another source, which may be, if it is in the same area 
geographically, it may be the same purity, or they will 
probably use more. I mean, is that a reasonable conclusion?
    Mr. Crane. I don't believe so over the long run. We know a 
lot more about cocaine than some of the other drugs. You know, 
we had a lot more of a cocaine problem in the western United 
States than we do today, and we have a lot less of a cocaine 
problem in the western United States than we do today. So there 
has been a trend away from this over time. So if you ruin the 
quality of the drugs, and effectively raise the price, make it 
quite costly for the drug traffickers, you will in fact, over 
time, reduce the potential of use of this. We have seen this in 
parts of the United States.
    Mr. Cummings. Do we have data or reports that show that?
    Mr. Crane. I believe so.
    Mr. Cummings. Would you mind getting that to the committee, 
please? I would love to see that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T2407.017
    
    Mr. Cummings. Let me ask you something with regard to 
eradication, with regard to these peasant farmers. Are we 
giving them alternatives? Because that seems to be a major 
source of income for those who have so little. And I guess they 
are willing to take the risk, but what are we doing to give 
them alternatives?
    Mr. Crane. Well, we have a balanced program which provides 
alternatives in many areas. One of the programs of President 
Uribe is to put basically wards in some of these areas, to 
rebuild the forest in some of the drug-decimated areas in 
Southern Colombia. But in some areas you just don't replace 
their agriculture; in some areas you give them different kinds 
of jobs. So we have a broad range of programs to try to make 
their life better to support these efforts through the agency 
of international development.
    Mr. Cummings. Examples? I am just curious. I mean, you have 
people who are probably making a fairly decent living, and 
people get used to that living growing these plants, and then 
we come along and, believe me, I have no pity for those who 
produce products of death, but we come along and we destroy 
that way of life, and I am just wondering what kind of jobs and 
to what extent do we get them? I mean, I am just curious. You 
said that we have a balanced approach, so give me some examples 
of what we are doing.
    Mr. Crane. Well, the one example I gave in the areas that 
used to be forest in the Putumayo where they were growing, many 
of the people moved in there to profit off the drug industry 
from other areas. Now, many of those people have left because 
the drugs aren't there. We haven't had any big catastrophe in 
this area to date. Second, President Uribe has established some 
programs to re-establish some of these forests, and we have 
been supporting those programs. In addition, we have been 
trying to put in more development in the towns themselves, more 
of the kinds of things where you could have a legitimate 
economy. One of the great tragedies in any of these areas is 
the drug economy drives out all the legitimate ones, and it 
takes some time to re-establish. So it takes some time, but we 
have to do that. The drug economy is not one which anyone would 
want to operate under, I mean, it is ruled by violence and 
fear, and it creates really a pretty terrible situation for the 
person. So these programs take time, but they are underway.
    Mr. Cummings. Let me just go back to one other question. 
When you measure your success, when you and the people that 
work with you get together and the thing that gets your 
adrenaline pumping and you just get excited and want to just 
jump up and down, what is that? What is that? How do you 
measure success?
    Mr. Crane. Well, let me give just an example, a concrete 
example. With the support of this committee and many of the 
Members here, we have put a pretty big program to try to get 
things going right in Colombia. That is about to pay, I 
believe, a pretty good sized dividend. The way the drug market 
will be ruined there, it won't just be ruined a little bit at a 
time; there should be a large change in the drug market, once 
you get to some critical level. Now, I believe we achieved that 
beginning about Christmastime, that is, where we could take out 
the drug industry at a rate faster than they could reconstitute 
it. There will be some point, we hope, where there will be a 
big change in the system. Now, this is where there will be a 
lot of benefits to America and the rest of the world. So our 
goal is not simply to make little changes, but to try and ruin 
the whole business. That is why this disrupt the market 
strategy was developed.
    Mr. Cummings. You spoke earlier in your testimony about how 
the government has now been able to find these people I guess 
in the police force and wherever who are divulging information.
    Mr. Crane. Right.
    Mr. Cummings. Did you mention that?
    Mr. Crane. I mentioned Mexico. Let me talk a little bit 
about Mexico, because we have seen some dramatic things there. 
The commitment of President Fox, with our Government, too, has 
been one in which they begin reforming really the police, take 
the corruption out of there. There have been some remarkable 
changes. The most visible evidence of this is the arrest of a 
lot of the big cartel leaders in Mexico. And the really serious 
efforts by the Government of Mexico to gain control of the 
border cities, to get them back under control of the Federal 
Government, and to clean up a lot of the corruption. Just last 
year, I mean, they have completely revamped their Federal 
police, their drug police, they are reorganizing them, and I 
don't want to mention names, but there are certain individuals 
there that really get the job done, and they have been putting 
them in charge. This is very important to the United States, 
and so we are putting maximum effort on that, because we would 
like to see, during the current administration, that we get as 
much out of that we can and consolidate all of those gains. So 
there has been a lot of progress in Mexico, remarkably so.
    Mr. Cummings. The chairman said, when he first started, 
that we ought to be talking about successes, and I agree with 
that, I mean, because what is happening is that a lot of people 
know we are spending a lot of money, and the American people 
want to know that we are getting results and we are spending 
their money effectively and efficiently. And so, you know, the 
victories are very important to us too, because when those 
victories are not presented, and if the Congress doesn't know 
that we have those victories, it doesn't help you at all, 
because what happens is that they begin to say, well, you know, 
since we have all these priorities, let us shift money from one 
place to another and not let it go there, but let it go 
somewhere else.
    Mr. Crane. I would be happy to comment on that, because I 
would like to put it in a longer strategic perspective. Let me 
just start when we started this, really about 10 years ago, in 
the early 1990's, or even earlier than that. Bolivia was the 
primary source of cocaine originally. We put programs in there; 
we have done a lot to that. They were mainly air trafficking to 
Colombia; that pretty well stopped. The second big success is 
we got into Peru. And you can think of this as sort of a 
campaign, where we eliminated each of these countries and now 
we are focused on the final piece of this, Colombia, which is 
difficult. Peru had much more cultivation than it does today. 
Those things succeeded. In the early 1980's, for example, over 
1,000 airplanes carried drugs and landed in the United States. 
Today very few do that. So the air transportation threat has 
diminished remarkably.
    Now we are in the sort of final phase here, where we have, 
because of the committee and the Congress is working, we have 
sufficient assets to cause a lot more damage. We now have them 
in place in Colombia where they can do some good. But you had 
to get to the sort of critical number, and we are now at that 
level. So the hope is we can do a lot of damage, for example, 
to cocaine and also heroin in the Andes. That is our goal. With 
the synergistic effects of President Uribe trying to establish 
authority over all the municipalities, I think he is planning 
to have by the end of the year a government in every one of the 
municipalities in Colombia, we will now be able to put some 
legal forces and try to stop these drug businesses. So we are 
looking at a very positive situation, and we need to make sure 
that we carry through to the final.
    Mr. Cummings. Thank you very much.
    Mr. Souder. It has been the consistent approach of this 
committee that it isn't just about interdiction or eradication 
or enforcement or treatment or prevention, but that if we 
couldn't get control of some of the cheapness and the purity 
that was coming in, we were just overwhelmed at the State level 
and local level. But one of the things that we are focusing on 
in this 2-year cycle is trying to do a complete analysis of the 
treatment problems in the United States. We are trying to get 
the ONDCP through, which is our primary efforts of national ad 
campaign, as well as the HIDTAs with local law enforcement, as 
well as giving technology to local police forces, which are 
things that are on the ground in the communities. And, in fact, 
if we look at the Colombia effort, even if we succeed in a 
major hit on that, it is going to give us about a 2 or 3-year 
window in the United States to make some progress, or it will 
just go right back again, because that is that fungible in a 
relationship.
    And if Members haven't noticed, one of the things we don't 
have this morning is a clock. We just moved back into our 
offices Monday night and Tuesday, and didn't have the little 
lights. So if it gets too long, I will tap, but we are in no 
particular rush here with one witness.
    Congressman Carter.
    Mr. Cummings. And I thank you for not tapping me.
    Mr. Souder. I know better.
    Mr. Carter. Dr. Crane, I apologize for coming in late. I 
have a history of being a trial judge for a long time in Texas, 
and I live on I-35, which is, by most estimates, the No. 1 
pipeline from Mexico to the East Coast and the Midwest. We 
estimate that we stop about 1 in 20 mules moving from Mexico to 
the north, and we are pretty aggressive on this stretch of I-
35. It sounds like the same numbers are probably approaching 
what you are dealing with when you are dealing with shipping. 
Would that be a fair estimate?
    Mr. Crane. I think, to be fair, one has to look at the 
whole thing. We get a substantial amount inside of South 
America; we seize it, besides this eradication. We interdict on 
the Caribbean Sea; we go after airplanes, ships. I think we get 
a lot. If you take a look, I could go through it, but we could 
look at the U.N. data; we probably get, when you integrate it 
all, probably more than half of it. But, again, you know, these 
numbers are always questionable. But cocaine actually is one of 
the areas we probably seize a substantial amount. But we can 
certainly get you the exact numbers for that, particularly 
integrated over the whole thing.
    Mr. Carter. You know, what we are dealing with is a wide 
variety and assortment of drugs that move up and down 
Interstate 35.
    Mr. Crane. Right.
    Mr. Carter. One of the things that has concerned me in 
having to deal with this, when you deal with it in the 
courthouse, it seems like, you know, an almost bottomless pit 
of dealing, from the people that are users that you get for 
possession, you put in prison or you treat them or you do 
something. It is a huge cost of resources for this country. And 
I don't have any numbers, you might have a number, but I would 
estimate that substantially more young Americans are dying from 
the drug trade in the United States than are dying in any war 
that we are fighting anywhere in this world. Would you say that 
is a pretty fair estimate?
    Mr. Crane. I would say that is probably a fair estimate.
    Mr. Carter. Because daily hundreds of young people die.
    Mr. Cane. Oh, I don't know about daily hundreds of young 
people, but I do know that over the year the substantial number 
of people die from illegal use of drugs. That is why we take 
serious action. If you look at it historically, 10 or 15 years 
ago, it was a worse situation than we have today. We have 
actually made some reasonable progress. The United States is 
one of the few countries the United Nations cited as actually 
making substantial progress, so you can see that in their most 
recent World Drug Report. But I do realize that at the local 
level it can seem overwhelming. I can't actually comment 
directly on your district, but what I can say is that we have 
to have an integrated campaign from one end to the other and 
try to damage it.
    Mr. Carter. Well, I can only operate from my own personal 
experiences, but if you make it hard enough on people, and if 
we are going to call this a war on drugs, if we are at war with 
people, then we do whatever it takes to get the job done, and 
we don't coddle the people and we don't say, you know, you have 
been a misunderstood child, you know, you have killed our kids 
and you are ruining our economy and you are hurting our people, 
and, therefore, we are going to punish you, and we are going to 
severely punish you. We take that policy in the little county 
that I am from. We have the lowest crime rate in the State of 
Texas.
    Now, do you feel that what happens to these people when we 
interdict and catch them is harsh enough to keep them out of 
this very lucrative trade, or do they just serve their time, 22 
months, and get right back in the trade?
    Mr. Crane. From my perspective, and I will speak about the 
famous situation in Colombia, the famous quotation of Pablo 
Escobar, the leader of one of the big drug cartels in Colombia, 
that, you know, a grave in Colombia was better than a jail cell 
in the United States basically. So we very seriously harshly 
treat these people and incarcerate them for long periods of 
time. We extradited record numbers of them in Colombia. So we 
are doing this, and it is very serious. And many of the ones we 
have interviewed in the jails were surprised at the severity of 
the sentences.
    Mr. Carter. That is what I wanted to know.
    Mr. Crane. We do go after them seriously, and this is a 
very serious matter for the President in all of our behalf, and 
there are very serious penalties. We have been putting a lot of 
them in jail for the rest of their lives or for very long 
periods of time.
    Mr. Carter. Excellent. That is what I wanted to know. Thank 
you.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, Dr. Crane, I agree with 
your focus on looking at the whole drug situation as a 
business. Congressman Carter was a judge; I was a prosecutor 
specialized in Title IIIs and a lot of drug work, and if you 
are getting them in the pocketbook, that is where it makes a 
difference, and I hope we can move forward.
    My biggest concern, and it is a concern that you didn't 
express today, but I would like to explore it a little bit 
more, is the issue of taking the resources away from our drug 
interdiction, what we have done throughout the years and the 
good results that have been obtained, and taking the resources 
away from there and putting them into terrorism. Now, I believe 
we need to put the resources into terrorism, but we shouldn't 
be taking them away from the drug area.
    Now, let me give you some examples. I am on the 
Intelligence Committee, and a group of us went to Asia, and one 
of the areas that we went to was Thailand. And we went into the 
upper areas right at the border next to Burma, and we were 
briefed. And, you know, it is always great, you sit here in 
committee and you hear different testimony, and not that you 
are, but some people are very reluctant to say anything because 
they are concerned they might get in trouble or whatever it is. 
Sometimes that is very frustrating But when you go to the front 
line, you see what the real deal is. And what we got, not in 
Thailand, but in some other areas, is that you have some very 
dedicated front-line DEA agents, and they don't have the 
resources; where they used to have maybe six or seven, you have 
one or maybe two. Now, they have become advisors to the Thai 
police, military, and things of that nature, but after hearing 
what they say and what their issues are, it seems to me they 
are almost on top of it.
    As you said, we are getting better, we are getting more 
sophisticated, we are cooperating and developing better 
relationships and training other governments to deal with the 
issue, but it seems to me that by taking away those resources, 
it could blow. As an example, Burma, which, as you know, they 
have a quasi-military that protects the people that come in 
through the trails from Burma to Thailand, and just the day we 
were there, there was a big gunfight between the two groups; I 
think 10 people were killed, and thank goodness the bad guys, 
not our side. But, you know, there could be a real issue if we 
don't really re-evaluate and stop saying we are fine, we are 
good. We are looking for money everywhere, homeland security, 
whatever it is. Whatever the issue is, we have money issues, 
and we can see different agencies everywhere, including 
Department of Defense, trying to deal with the issue of money. 
So what I would like to do is really develop a strategy and 
make sure we get the facts out there on what we really do need, 
because what is going to happen, and it is already happening in 
Colombia, is that because the terrorists, we have been going 
after the money and doing a good job with respect to terrorism, 
but they are going to be looking for other sources of money, 
and it would be a great partnership between terrorists and 
between the drug organizations, and you have it right now in 
Colombia. I believe there are estimates that half the money 
that is used by terrorists in Colombia to buy weapons and the 
resources they need come from the drug cartels. Is that your 
opinion?
    Mr. Crane. Oh, absolutely. I think that is true.
    Mr Ruppersberger. So more and more this is going to come 
together. But you still can't take away from the drug 
enforcement, and I am very much concerned about it. We have had 
many hearings in this committee; I have raised that issue over 
and over again, and all we hear is it is great, it is good, and 
whatever; and that is the opinion I got here today, and I don't 
believe that it is. And I would really hope that you could at 
least put the facts. All we are talking about is getting the 
facts together and how we might have to keep putting our 
resources into the drug arena.
    Could you comment on my statement, please?
    Mr. Crane. Absolutely. I visited Burma also. I'm sorry, not 
Burma, the northern border of Thailand, and discussed with the 
Thais, as well as the Chinese, the problems with drug control.
    Mr. Ruppersberger. And, by the way, one other thing while 
we were there, it seems like because of the money issue, the 
drug right now is methamphetamine, and the reason is because of 
the margins of profit. They have these factories there and they 
can make so much, and they make so much profit based on the 
profit of heroin at this point.
    Mr. Crane. What I would like to do is put the perspective 
on the whole Thailand and the strategic pictures.
    Mr. Ruppersberger. I am talking about the whole policy. I 
just used Thailand as an example.
    Mr. Crane. Yes. I was going to give that as an example, 
though, to say that at the tactical level operators always ask 
for more assets. The question is how are we doing there in the 
strategic context. This was one of the largest opium growing 
areas in the world when I was over in Asia and lived in 
Thailand in the 1971 timeframe. When I went back and visited, I 
was surprised. The northern part of Thailand, for example, has 
been completely reformed, alternative crops and everything. It 
is a very productive area. That used to be opium country, north 
of Cheng Mai; now, today, it isn't. So there has been a very 
big success in that respect. Second, both the Thais and the 
Chinese have worked hard and have gone after actually this 
outlaw, the Wa State Army and those people, and there have been 
substantial reductions in opium. I think this year we are going 
to get another 40 percent. Slowly the golden triangle is being 
removed from the opium area.
    But you are exactly right, methamphetamine is the new 
problem, and that is one that we are trying to get grips with. 
The best we know, the thing that seems to work against 
methamphetamine, is controlling the precursor chemicals, and 
that is the best we can do in our understanding. So we have 
mounted programs, for example, the Chinese manufacture a lot. 
The Chinese have given us assurances and so on they would try 
to help us with this. So the United States can't do everything 
everywhere, so we have tried to build these multi-coalitions to 
get these other countries to contribute also. We have to do 
that, and I think we have had some success.
    Mr. Ruppersberger. And it is working. It is working.
    Mr. Crane. Yes. So while I realize the tactical forces at 
the border, this is an important thing.
    Mr. Ruppersberger. But my macro question is the resources 
that are being taken away from drugs and going into terrorism, 
where in fact we can't take away from one and give to the other 
without having an effect. Eventually, it is going to make a 
difference.
    And I remember testimony, I am not sure, Mr. Chairman, how 
we had a group of law enforcement officers from all over the 
country, and there were statistics that showed that there has 
been an increase in certain areas since the lack of resources 
have come in. That was about a month ago; I don't recall the 
hearing.
    Mr. Crane. I think to be very specific, we really need to 
fully fund the DEA. They have picked up a lot more since 
September 11, a lot more responsibilities in their 
international programs, and fully funding the President's 
initiative, that would help. DEA intelligence has been really 
excellent.
    Mr. Ruppersberger. Well, I understand you are speaking for 
your President. I agree.
    Mr. Crane. No, but it is very important that we really push 
for that because we have really gotten tremendous bang for the 
buck out of those great Americans out there on the front lines.
    Mr. Ruppersberger. Getting back to my question, do you 
feel, based on your position and what you know, that the 
resources being taken away from drug interdiction, which might 
be going over to homeland security, or wherever they are going, 
and that we really need to really maintain at least our status 
quo now because we are doing the job?
    Mr. Crane. I honestly don't believe that while there might 
be some little things on the margins, that the main program is 
still succeeding at the level that the homeland security is 
focused more. I don't personally believe, looking at what has 
happened and the results, that any of this has affected us that 
much in our operations, while I always recognize you can do 
some more. So I have not seen that, and I have been looking at 
this for a long time as an expert in this area.
    Mr. Ruppersberger. Well, I guess time is going to tell, 
because we will have to evaluate the performance.
    Mr. Crane. Absolutely.
    Mr. Ruppersberger. And the purpose of this committee here 
is to try to establish what your needs are and how we can 
direct, if we agree with what the policy is, that we can put 
the resources back into that.
    Mr. Souder. I want to ask a few other specific followup 
questions. What you are hearing from this committee in a 
bipartisan way, and I don't know a delicate way to say this 
because I am such a strong supporter of this administration, 
and I understand that we are in direct budget pressure and I 
understand there is tremendous pressure, at least in public 
comments, to have people inside the administration agree with 
each other, but we have to have the people in charge in our 
policy weighing in aggressively on these policies and not 
getting rolled right now in the internal debates, because we 
can chase various things. We all know I am on the Homeland 
Security Committee, and I know we have long-term pressures 
there, but narcotics and homeland security are so inter-
related, plus we have more known deaths every year from 
narcotics. And I just do not believe it is an accurate 
statement that there hasn't been a reduction. Now, we all know 
why there has been a reduction, but you yourself, just a little 
bit ago, said that we are doing almost as well in your, what I 
believe is a very optimistic, projection of how we are doing 
with go-fast boats. But the President didn't say we are going 
to do almost as well in narcotics reduction, he said that ONDCP 
and Director Walters were going to be accountable for reducing 
drug use in the United States so much per year, and almost as 
well isn't cutting it. Now, we understand that a few variables 
came up, but then we need to say, OK, well, what do we have to 
do to meet those targets.
    I also thought I just heard you say that you believe that 
the golden triangle is being removed as a major source. Did 
that mean Burma too?
    Mr. Crane. I said opium.
    Mr. Souder. Heroin.
    Mr. Crane. I think the results are going to show that opium 
reduction in the golden triangle continues to decline every 
year. We believe there will be a major reduction again this 
year, and this isn't the result of the United States in there, 
this is the result of a coalition of nations working together 
to get this to happen.
    Mr. Souder. Do you believe that Burma, the total golden 
triangle?
    Mr. Crane. Yes, Burma is going to decline. I think the U.N. 
reports in this area, the ones I talked to the U.N. staff, we 
have had very good relations with them; they do a lot of ground 
surveys.
    Mr. Souder. I beg to differ with that statement, and see if 
you disagree with this. The U.N. drug control people believe 
that there has been a reduction in the golden triangle not 
because of wonderful efforts there, although Thailand has been 
aggressive, but because we haven't controlled Afghanistan, and 
that there has been a re-surge of opium in Afghanistan. And the 
Brits agree with this, ONDCP is making this case, and that what 
it has done is Afghan heroin and other parts are driving the 
market to the west. In fact, I believe just yesterday the State 
Department cited Burma again for lack of cooperation as one of 
those nations.
    Mr. Crane. Oh, absolutely.
    Mr. Souder. Not on human rights, but on narcotics.
    Mr. Crane. Methamphetamine in particular.
    Mr. Souder. But one of my questions would be what specific 
recommendations have you made regarding Afghanistan, and do you 
know or have you recommended any policies to go after the 
stockpiles that basically, for various reasons, were not 
sought, and have you made recommendations to go after the 
heroin and opium production in Afghanistan? Because while it 
may not be going to the United States as directly, although 
that is unclear what is hitting the West Coast, because there 
heroin is coming from the Asian side, it certainly is part of 
the international drug control money laundering parts, that to 
the degree that Afghan heroin and, for that matter, anything 
coming out of Burma or China, the region in that area, moves to 
Europe, it means that Colombian heroin moves to the United 
States, because it needs a market, and if it doesn't have a 
European market, it floods our market harder. What specific 
recommendations have you made and what are we doing to try to 
reconcile what has been kind of an, because we have other 
focuses in Afghanistan, increasing problem, and that is that 
the production seems to be back up and their stockpiles haven't 
been hit?
    Mr. Crane. Let me just comment a little bit about that. In 
Afghanistan we do have a detailed strategy; the United Kingdom 
is the lead. We support that. There are other nations we are 
trying to bring on board because we need a multilateral thing. 
The President has put substantially more resources into 
Afghanistan with his new acceleration initiatives just 
announced last week.
    Mr. Souder. New dollars for drug interdiction?
    Mr. Crane. Let me go to our problem. Our problem is lack of 
security in the areas. So we need the police. That is where you 
put the money and that is where it should be put. The most 
important piece is that we got commitment of the central 
government to outlaw the opium. That has happened. If you take 
a look at the current information, that has gotten attention of 
the farmers; they have disbursed somewhat. They are not doing 
what they did years ago, which is growing it right along the 
main highway in large farms. So there has been an impact on the 
farmers. The opium production has not recovered, according to 
our official estimates, to where it was during the Taliban 
times, and there are reports from the U.N. where the quality of 
the drug, or purity, declined in Europe over the last couple of 
years. So those things give us some hope, but we are certainly 
nowhere near where we want to be yet; we want to eliminate 
that.
    It makes it very difficult, if we don't get control of the 
drugs in Afghanistan, to establish viable, legitimate 
economies; it prevents everything. So the first step, of 
course, is to put a lot more police in there, in the local 
governments, but in the end narcotics control has to be a local 
effort inside three areas, it can't be done remotely. So 
President Karzi has made the commitment, as far as I can tell; 
President Bush is going to give him a lot more resources for 
the police, and so as we stabilize that government it is 
certainly the intention of not only the United States, but many 
other countries, and it is my role to meet with them and get 
them to put substantial assets in their also. So that is what 
we are doing right now, our strategy.
    Mr. Souder. Well, the problem I have, while that sounds 
good, I understand the nature of the terrorist threat, it is 
not the way we are approaching it in Colombia. Because their 
local police forces, CMP, we are supporting their units in the 
defense department, but we are also putting planes in for 
eradication, even though the villages aren't necessarily 
stabilized yet. I mean, there are areas we are doing 
eradication, where we are doing interdiction, where we are 
doing shoot-down policy even if we don't have security in those 
villages yet.
    Mr. Crane. It is true. Coca is a different kind of crop 
than heroin poppy.
    Mr. Souder. We are doing this on heroin in Colombia as 
well.
    Mr. Crane. Right. But the big effort clearly is in coca.
    Mr. Souder. Well, there is agreement here on the Hill some 
about whether or not there should be a big effort in both of 
those.
    Mr. Crane. But I am just saying the magnitude of the coca 
is a lot bigger.
    Mr. Souder. Yes, there is more coca.
    Mr. Crane. Yes. And if you look at poppy, we have actually 
changed our whole tactics. But to get back to your question, I 
would disagree with one statement. I think President Uribe has 
made the commitment to go back to those for the first time in 
history. So even though that is not a drug control aspect, the 
fact that drug control is helping them remove the financing of 
these real armies. He is going to take back the territory. And 
so we are doing that together. So they are going to take back 
the territory and establish local law.
    Mr. Souder. Well, I absolutely support that, but we are 
doing both. Are we doing both in Afghanistan?
    Mr. Crane. In Afghanistan we are going to have to do both 
too, but there it is very likely you are going to be able to 
spray. If you look at the way the poppy fields, most of the 
agriculture in Afghanistan is legitimate, it is just a small 
fraction that isn't, even though it is still a substantial part 
of the poppy market. But these are very small plots that the 
farmers have grown, so you are going to have to go in there 
pretty much with people on the ground and manually get rid of 
them; you are not going to be able to do this like the big coca 
plantations.
    Mr. Souder. I wanted to ask two other specific questions, 
then I will see if anyone else has additional questions.
    In your written testimony you mention that the Canadians 
have taken steps to improve their precursor chemical laws, but 
that ``The regulation promulgated earlier this year by the 
Government of Canada to restrict the availability of 
pseudoephedrine and other precursor chemicals, while a step in 
the right direction, could be stronger.'' What specific 
recommendations do you have for making it stronger that we 
should be pushing for?
    Mr. Crane. I think in Canada we recognize that until they 
passed the original law earlier this year, they didn't really 
have too much control. There has to be more severe penalties. 
Perhaps we should put precursor control underneath law 
enforcement. So this leads to a diversity of who is in charge 
of it.
    Now, I am not saying those people aren't trying to do their 
best, but we need a really concentrated focused effort. Law 
enforcement should be looking at diversion like it is in the 
United States. But again, our relations with Canada, Canada is 
a very important country to the United States; we want them to 
succeed. I am personally dedicated to working with them and 
making it succeed; not just talk about the problems, but what 
can we do to make it work. Now, the Canadians have put through 
also a new drug control strategy this year. So all of these are 
positive. I believe it will help us with this activity.
    Mr. Souder. The biggest political problem we have in the 
United States is this proliferation in the narcotics area of 
meth labs. While they may not individually supply as much 
cocaine or marijuana, the number of it and how it is dominating 
the issue, and the potency of the meth and those precursor 
chemicals are not only coming heavily from Canada, which is our 
biggest trading partner, for example, in Indiana, by far, but 
we do need to address that and continue to work with them 
because this is probably the fastest growing pressure on us and 
the biggest danger to our kids because it can be produced 
domestically if we get control of some of the international.
    Along the same lines on the Dutch Government, you have in 
your written testimony ``Senior officials of the Dutch and U.S. 
Governments met in the Hague in March 2003 to discuss means of 
strengthening cooperation against international crime, 
narcotics trafficking'' and I wanted to know what the status of 
that was on Ecstasy, MDMA, and precursor chemicals, because 
they are the other big place those things are.
    Mr. Crane. I personally went to the Dutch, and I won't say 
what we said, but we were very firm with them on what needed to 
be done. With respect to the Ecstasy, the smuggling is one 
aspect of it. The other aspect is production, which is pretty 
high. So we told them, look, there are three things you can do 
to try to stop production. If you look at the current DEA data 
right now, the STRIDE data, it suggests that the purity of 
Ecstasy has declined substantially. And I think if you go back 
and take a look, hopefully we have turned the corner on the 
harmfulness of that drug. But again, we have law enforcement 
activities. The Dutch have been cooperating with us on this, 
and some other things, so we continue to work with them, put 
pressure on them. As you know, the Dutch have been strong 
supporters of the United States on the war on terror, and we 
need to work with them as a strong ally, so we have been doing 
that but being firm, and I think we made some progress with 
that.
    Mr. Souder. Are there any specific requests pending with 
them that they haven't implemented on precursor chemical laws 
or Ecstasy? And it spilled over into Antwerp as well.
    Mr. Crane. Well, there are certainly some detail things 
that off the top of my head I couldn't tell you the specific 
law enforcement.
    Mr. Souder. If you could give us some response.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2407.018
    
    Mr. Souder. Anything else, Mr. Ruppersberger?
    Mr. Ruppersberger. Just trying to get another way to get 
the needs. Broad question: What would you consider to be your 
biggest challenge in your capacity in dealing with the 
eradication and working with the drugs?
    Mr. Crane. That is a very fair question. You know, my 
biggest challenge is to get us to work together to cause really 
big changes. One of the strange things about these drug markets 
is they can automatically sort of adapt to pressures, and there 
are these sort of critical points, and when you get passed them 
you cause these large changes. So my biggest challenge is to 
get us to work together with our allies to get over these 
critical points and cause large changes, not small changes.
    Mr. Souder. With that, we appreciate your coming to our 
hearing today. We may have some additional written questions, 
and I had a couple, for you to get some detailed answers to, 
particularly with the Dutch and the Canadians. But we are 
trying to work with governments that at least in the law 
enforcement side want to work with us.
    Mr. Crane. Absolutely, sir.
    Mr. Souder. With that, the subcommittee stands adjourned.
    [Whereupon, at 11:13 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
